No. 20-8093

IN THE

Supreme (Emirt af the

-States

Martin James Kipp
Petitioner,
v.

Ron Broomfield, Acting Warden,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Mark R. Drozdowski, a Deputy Federal Public Defender in the Office

of the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and 18 U.S.C.
ยง 3599(a)(2), and who is a member of the Bar of this Court, hereby certifies

that, pursuant to Supreme Court Rule 29.3, on August 4, 2021, a copy of the
enclosed Reply to Brief in Opposition to Petition for Writ of Certiorari and

1

Certificate Pursuant to Rule 33 was mailed postage prepaid and
electronically mailed to:
Randall D. Einhorn
Deputy Attorney General
Office of the California Attorney General
600 West Broadway, Suite 1800
P.O. Box 85266
San Diego, CA 92186-5266
Randall. Einhorn@doj. ca. gov
DocketingLAAWT@doj.ca.gov

Counsel for Respondent

All parties required to be served have been served. I declare under
penalty of perjury under the laws of the United States of America that the

foregoing is true and correct.
Executed on August 4, 2021 at Los Angeles, California.

1

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

